  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




LOUISIANA IMPROPERLY CLAIMED SOME
CHILD CARE AND DEVELOPMENT FUND
         TARGETED FUNDS




    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                      Patricia Wheeler
                                                 Regional Inspector General

                                                       September 2013
                                                        A-06-12-00057
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
September 30, 2013


Report Number: A-06-12-00057

Ms. Suzy Sonnier
Secretary
Louisiana Department of Children & Family Services
P.O. Box 3776
Baton Rouge, LA 70821

Dear Ms. Sonnier:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Louisiana Improperly Claimed Some Child Care and
Development Fund Targeted Funds. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-12-00057 in all
correspondence.

                                             Sincerely,



                                             /Michelle Richards for/
                                             Patricia Wheeler
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Suzy Sonnier


Direct Reply to HHS Action Official:

Ms. Janice L. Samuel
Director
Division of Financial Integrity
Office of Financial Services
Administration for Children and Families
U.S. Department of Health and Human Services
370 L'Enfant Promenade, SW
Washington, DC 20447
Janice.Samuel@acf.hhs.gov

cc:
Ms. Shannon Rudisill
Director
Office of Child Care
Administration for Children and Families
U.S. Department of Health and Human Services
901 D Street, SW, 5th Floor East
Washington, DC 20447
Shannon.Rudisill@acf.hhs.gov

Ms. Moniquin Huggins
Director
Program Operations Division
Office of Child Care
Administration for Children and Families
U.S. Department of Health and Human Services
901 D Street, SW, 5th Floor East
Washington, DC 20447
Moniquin.Huggins@acf.hhs.gov
                                    EXECUTIVE SUMMARY

  Louisiana claimed $221,578 of unallowable Child Care and Development Fund targeted
  funds for fiscal years 2007 through 2009.


WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds known as the Infant and Toddler, Quality, and School Age Resource and Referral funds.
These targeted funds are used for activities that improve the availability, quality, and
affordability of childcare and to support the administration of these activities. The funds are 100
percent federally funded. Previous Office of Inspector General reviews found that one State did
not always comply with Federal requirements when claiming targeted funds for reimbursement.

The objective of this review was to determine whether the Louisiana Department of Children &
Family Services (State agency) complied with Federal requirements for the use of CCDF targeted
funds for Federal fiscal years (FYs) 2007 through 2009.

BACKGROUND

Under the CCDF program, States have considerable latitude in administering and implementing
their childcare programs. Each State must develop, and submit to the Administration for
Children and Families (ACF) for approval, a State plan that identifies the purposes for which
CCDF funds will be expended for two grant periods (i.e., 2 FYs). Program requirements state
that a State agency has 2 FYs to obligate CCDF funds and a third FY to liquidate those funds.
The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.

In Louisiana, the State agency is the lead agency. As the lead agency, the State agency is
required to oversee the expenditure of funds by contractors, grantees, and other Louisiana
government agencies to ensure that the funds are expended in accordance with Federal
requirements.

The State agency claimed CCDF targeted funds totaling $18,373,825 on its ACF-696 reports for
FYs 2007 through 2009. We reviewed all of the targeted fund expenditures claimed by the State
agency.

WHAT WE FOUND

The State agency generally complied with Federal requirements for the use of CCDF targeted
funds for FYs 2007 through 2009. However, the State agency did not comply with Federal
requirements for the use of $221,578 in CCDF targeted funds. Specifically, the State agency did
not have adequate support for $144,724 and $76,854 in School Age Resource and Referral



Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)   i
targeted funds reported on the ACF-696 report for FYs 2009 and 2008, respectively. The State
agency complied with Federal requirements for the use of the remaining $18,152,247 of CCDF
targeted funds. The lack of support occurred because the State agency did not have adequate
controls in place to monitor the allocation and reporting of expenditures claimed for targeted
funds.

WHAT WE RECOMMEND

We recommend that the State agency:

   •   refund $221,578 to the Federal Government for targeted funds that were not adequately
       supported ($144,724 for FY 2009 and $76,854 for FY 2008) and

   •   strengthen its policies and procedures on monitoring the allocation and reporting of
       expenditures claimed for targeted funds, and include management review of external
       reports.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency said that it did not concur with our
findings and recommendations. However, for our second finding, the State agency identified
corrective actions that it has taken. After reviewing the State agency’s comments, we maintain
that our findings and recommendations are valid.




Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)   ii
                                                     TABLE OF CONTENTS

INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective ......................................................................................................................... 1

           Background ..................................................................................................................... 1

           How We Conducted This Review................................................................................... 2

FINDINGS .................................................................................................................................. 2

           The State Agency Did Not Adequately Support Targeted Funds ................................... 2

           The State Agency Did Not Have Adequate Controls in Place........................................ 3

RECOMMENDATIONS ............................................................................................................ 3

STATE AGENCY COMMENTS ............................................................................................... 4

OFFICE OF INSPECTOR GENERAL RESPONSE ................................................................. 4

APPENDIXES

           A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS .............................. 5

           B: AUDIT SCOPE AND METHODOLOGY ............................................................... 6

           C: FEDERAL REQUIREMENTS RELATED TO CHILD CARE
               AND DEVEOPMENT FUND TARGETED FUNDS ........................................... 8

           D: STATE AGENCY COMMENTS ............................................................................. 9




Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)                                                   iii
                                         INTRODUCTION

WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds that are administered at the Federal level by the U.S. Department of Health and Human
Services, Administration for Children and Families (ACF), and known as the Infant and Toddler,
Quality, and School Age Resource and Referral funds. These targeted funds are used for
activities that improve the availability, quality, and affordability of childcare and to support the
administration of these activities. The funds are 100 percent federally funded. Previous Office
of Inspector General (OIG) reviews found that one State did not always comply with Federal
requirements when claiming targeted funds for reimbursement. Appendix A contains a list of
OIG reports related to targeted funds.

OBJECTIVE

Our objective was to determine whether the Louisiana Department of Children & Family Services
(State agency) complied with Federal requirements for the use of CCDF targeted funds for Federal
fiscal years (FYs) 2007 through 2009.

BACKGROUND

Under the CCDF program, States have considerable latitude in implementing and administering
their childcare programs. Each State must develop, and submit to ACF for approval, a State plan
that identifies the purposes for which CCDF funds will be expended for two grant periods (i.e.,
2 FYs). Program requirements state that a State agency has 2 FYs to obligate CCDF funds and a
third FY to liquidate those funds. The following table shows the obligation and liquidation
periods for each FY covered by our review.

                           Table: Obligation and Liquidation Periods

                               Obligation Period Obligation Period Liquidation Period
                                  Start Date         End Date          End Date
          Fiscal Year
             2007                  10/1/2006              9/30/2008               9/30/2009
             2008                  10/1/2007              9/30/2009               9/30/2010
             2009                  10/1/2008              9/30/2010               9/30/2011

The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.

In Louisiana, the State agency is the lead agency. As the lead agency, the State agency is
required to oversee the expenditure of funds by contractors, grantees, and other Louisiana
government agencies to ensure that the targeted funds are expended in accordance with Federal



Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)   1
requirements. The State agency considered these funds obligated at the time it signed contracts
with these entities.

HOW WE CONDUCTED THIS REVIEW

The State agency claimed CCDF targeted funds totaling $18,373,825 on its ACF-696 reports for
FYs 2007 through 2009. We reviewed all of the targeted fund expenditures claimed by the State
agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                                    FINDINGS

The State agency generally complied with Federal requirements for the use of CCDF targeted
funds for Federal FYs 2007 through 2009. However, the State agency did not comply with
Federal requirements for the use of $221,578 in CCDF targeted funds. Specifically, the State
agency did not have adequate support for $144,724 and $76,854 in School Age Resource and
Referral targeted funds reported on the ACF-696 report for FYs 2009 and 2008, respectively.
The State agency complied with Federal requirements for the remaining $18,152,247 of CCDF
targeted funds. The lack of support occurred because the State agency did not have adequate
controls in place to monitor the allocation and reporting of expenditures claimed for targeted
funds.

THE STATE AGENCY DID NOT ADEQUATELY SUPPORT TARGETED FUNDS

Fiscal control and accounting procedures must be sufficient to (1) permit preparation of reports
required by the statute authorizing the block grant and (2) permit the tracing of funds to a level of
expenditure adequate to establish that the funds have not been used in violation of the restrictions
and prohibitions of the statute authorizing the block grant (45 CFR § 98.67(c)). Appendix B
contains additional details on Federal requirements related to CCDF targeted funds.

The State agency overstated targeted fund expenditures by $221,578 ($144,724 for FY 2009 and
$76,854 for FY 2008). For FY 2009, the State agency reported $359,736 of expenditures for the
School Age Resource and Referral fund on the ACF-696 report (line 1(e)). However, the
reconciliation spreadsheet 1 used to support the allocation and reporting of targeted funds showed
only $215,012 of expenditures for line 1(e). In June 2009, the State agency reallocated

1
  The accounting staff used the reconciliation spreadsheet to calculate the expenditures reported on each line of the
ACF-696 report. See the section below, “The State Agency Did Not Have Adequate Controls In Place,” for
information on the State agency’s use of the reconciliation spreadsheet.



Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)                        2
expenditures from line 1(e) to other funding sources. As a result of this reallocation, the State
agency could not support $144,724 of expenditures reported on the ACF-696 report.

For FY 2008, the State agency reported $364,482 on line 1(e) of the ACF-696 report. However,
the reconciliation spreadsheet showed that the State agency had allocated expenditures incurred
in December 2008 to a different fund but did not correct the amount on line 1(e). As a result, the
reconciliation spreadsheet showed only $287,628 of expenditures for line 1(e), a difference of
$76,854.

THE STATE AGENCY DID NOT HAVE ADEQUATE CONTROLS IN PLACE

These errors occurred because the State agency did not have adequate controls in place to
monitor the allocation and reporting of expenditures claimed for targeted funds. The State
agency did not set up its accounting system 2 to track expenditures to the funding source or to the
grant year of the funding source. Instead, the State agency relied on externally created
spreadsheets to allocate and support reported expenditures. The accounting staff used data from
a report generated from the accounting system and allocation guidance from the budget staff on
the availability of funds by funding source and fiscal year to prepare a monthly Statement of
Expenditures. The Statement of Expenditures is an external spreadsheet used to allocate
expenditures by funding source and fiscal year. The accounting staff then prepared a
reconciliation spreadsheet, which it used to calculate the expenditures reported on each line of
the ACF-696 report.

The State agency used external spreadsheets in its financial reporting process but did not ensure
the accuracy and validity of those spreadsheets. The State agency did not have policies and
procedures that required management review of the reporting process. A review by management
should have determined that the targeted funds were not adequately supported by the external
spreadsheets used for financial reporting.

                                          RECOMMENDATIONS

We recommend that the State agency:

    •   refund $221,578 to the Federal Government for targeted funds that were not adequately
        supported ($144,724 for FY 2009 and $76,854 for FY 2008) and

    •   strengthen its policies and procedures on monitoring the allocation and reporting of
        expenditures claimed for targeted funds, and include management review of external
        reports.




2
 The accounting system we refer to is the automated Statewide financial management system used by the State
agency to record expenditures at the transaction level. We classified reports prepared outside of the system as
external.



Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)                  3
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that it did not concur with our
findings and recommendations. For our finding that targeted funds were not adequately
supported, the State agency said that the reconciliation worksheets used to calculate expenditures
reported on line 1(e) of the ACF-696 reports showed that the State expended Temporary
Assistance for Needy Families (TANF) transfer funds equal to or greater than the combined
$221,578 shortfall in discretionary funds [targeted funds] for both years. The State agency
contended that it could use the TANF transfer funds as targeted funds.

For our finding that policies and procedures on monitoring the allocation and reporting of
expenditures claimed for targeted funds need strengthening, the State agency identified
corrective actions that it has taken to monitor the allocation and reporting of targeted fund
expenditures, including reviews by managers in the State agency’s fiscal and program offices.
The State agency also said that in March 2013 it enhanced reconciliation tracking to capture
movement of expenditures by line item on the ACF-696 report.

The State agency’s comments appear in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. Our review did not question whether TANF or other funds may or
may not be used for discretionary expenditures. Regarding the State agency overstating targeted
fund expenditures by $221,578, we based our finding on the support that the State agency
provided for expenditures reported on the ACF-696 reports, primarily the reconciliation
spreadsheets. Regardless of whether TANF funds may be claimed as targeted funds, the
reconciliation spreadsheets did not support those expenditures on the ACF-696 reports. For our
second finding regarding not having adequate controls in place, the corrective actions that the
State agency reported to strengthen the policies and procedures on monitoring the allocation and
reporting of expenditures claimed for targeted funds comply with our second recommendation.




Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)   4
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                     Report
                          Report Title                                               Date Issued
                                                                     Number
   Michigan Properly Obligated and Liquidated Targeted
   Funds Under the Child Care and Development Fund                A-05-12-00062        04/26/13
   Program
   Nebraska Improperly Claimed Some Child Care and
                                                                  A-07-12-03175        04/30/13
   Development Targeted Funds
   Ohio Properly Obligated and Liquidated Targeted
   Funds Under the Child Care and Development Fund                A-05-12-00061        04/26/13
   Program
   Iowa Improperly Claimed Some Child Care and
                                                                  A-07-11-03163        03/28/12
   Development Targeted Funds
   Review of Unexpended Infant and Toddler Targeted
   Funds and Quality Targeted Funds Claimed by the
                                                                  A-07-07-00231        08/18/08
   Iowa Department of Human Services for Fiscal Years
   1998–2003




Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)   5
                       APPENDIX B: SCOPE AND METHODOLOGY

SCOPE

We reviewed all of the $18,373,825 in CCDF targeted fund expenditures the State agency
claimed on its ACF-696 reports for FYs 2007 through 2009, including $434,454 of targeted fund
expenditures that the State agency disbursed to the Louisiana Department of Health and
Hospitals. We did not perform a detailed review of the State agency’s internal controls because
our objective did not require us to do so. We limited our review to the controls related to the
obligation and liquidation of the targeted funds.

We conducted fieldwork at the State agency in Baton Rouge, Louisiana, from October 2012
through March 2013.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and program guidance, as well as State
       laws and the approved Louisiana CCDF State plans;

   •   reviewed the ACF-696 reports for FYs 2007 through 2009 to determine the amount of
       targeted funds that the State agency claimed;

   •   interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
       understanding of how the reports were prepared, how the targeted funds were reported,
       and what documentation was maintained to support expenditures on the reports;

   •   reviewed the State agency’s contracts with contractors, grantees, and other Louisiana
       government agencies to determine the dates on which the contracts were signed in
       relation to the obligation requirements of the targeted funds for FYs 2007 through 2009;

   •   compared the State agency’s dates of payments made to contractors, grantees, and other
       Louisiana government agencies with the liquidation requirements of the targeted funds
       for FYs 2007 through 2009;

   •   reviewed the documentation the State agency used to prepare the ACF-696 reports;

   •   reviewed accounting documentation maintained by the State agency for Infant and
       Toddler targeted funds used to increase payments to providers of childcare services for
       children under the age of 3;

   •   reviewed documentation submitted by contractors to the State agency in support of
       targeted fund expenditures; and



Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)   6
   •   discussed the results of our review with State agency officials on April 8, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)   7
      APPENDIX C: FEDERAL REQUIREMENTS RELATED TO CHILD CARE
               AND DEVELOPMENT FUND TARGETED FUNDS

FUND OBLIGATION REGULATIONS

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.
Unliquidated obligations as of the end of the succeeding fiscal year shall be liquidated within one
year.”

Federal regulations (45 CFR § 98.60(d)(7)) state that “[a]ny funds not obligated during the
obligation period specified in paragraph (d) of this section will revert to the Federal government.
Any funds not liquidated by the end of the applicable liquidation period specified in paragraph
(d) of this section will also revert to the Federal government.”

ACTIVITY REGULATIONS

Federal regulations (45 CFR § 98.67(c)) require that fiscal control and accounting procedures be
sufficient to (1) permit preparation of reports required by the statute authorizing the block grant
and (2) permit the tracing of funds to a level of expenditure adequate to establish that such funds
have not been used in violation of the restrictions and prohibitions of the statute authorizing the
block grant.

Federal regulations (45 CFR § 98.16(a)) require that the approved CCDF State plan include
“[s]pecification of the lead agency whose duties and responsibilities are delineated in [45 CFR] §
98.10.”

Federal regulations (45 CFR § 98.16(h)) require that the approved CCDF State plan include
“[a] description of the activities to provide comprehensive consumer education, to increase
parental choice, and to improve the quality and availability of child care, pursuant to [45 CFR]
§ 98.51.”




Louisiana Improperly Claimed Some Child Care and Development Fund Targeted Funds (A-06-12-00057)   8
                               APPENDIX D: STATE AGENCY COMMENTS 





          ~.¥ Department of
           &I Cnildren&                                    Executive Division
                                                           627 North 4th Street
                                                           Post Office Box 3776
                                                                                            0 225.342.0286
                                                                                           F 225.342.8636
                                                                                                                      Bobby Jindal, Governor
                                                                                                                      Suzy Sonnier, Secretary
          Family Services                                  Baton Rouge, LA 70821
                                                                                           www.dcfs.la.gov

           Building a Stronger Lnuisiana


           August 23, 2013



           Ms. Patricia Wheeler 

           Regional inspector General for Audit Services 

           U.S. Department of Health and Human Services 

           Office of the Inspector General 

           Office of Audit Services- Region VI 

           II 00 Commerce Street, Room 632 

           Dallas, TX 75242 


           RE: DCFS Chi ld Care and Development Funds - Targeted Funds Audit

           Dear Ms. Wheeler:

           The following is submitted in response to your request dated July 23, 2013 in reference to the aforementioned 

           audit. The Department of Chi ldren & Fami ly Services (DCFS) does not concur with the findings identified. As 

           such, the foll owing discloses DCFS's concurrences, non-concurrence and corrective actions as applicable: 


           Findings: The State agency generally complied with Federal requirements for the use of CCDF targeted 

           funds for Federal FYs 2007 through 2009. However, the State agency did not comply with Federal 

           requirements for the use of $22 1,578 in CCDF ta rgeted funds. Specifically, the State agency did not have 

           adequate support for $144,724 and $76,854 in School Age Resources and Referral targeted funds reported 

           on the ACF-696 report for FYs 2009 and 2008, respectively. The State agency complied with Federal 

           requirements for the remaining $185,152,247 of CCDF targeted funds. The lack of support occurred 

           because the State agency did not have adequate controls in place to monitor the allocation and reporting of 

           expenditures claimed for targeted funds. 


           Recommendations: The State agency refund $221,578 to the Federal Government for targeted funds that 

           were not adequately supported ($144,724 for FY 2009 and $76,854 for FY 2008) and strengthen policies and 

           procedures on monitoring the allocation and reporting of expenditures claimed for targeted funds, and 

           include management review of external reports. 


           DCFS does not concur with the aforementioned findings and recommendations.

           Specifically, DCFS reconciliation worksheets, referenced in the audit, calculate expenditures reported on Line l(e) 

           of the ACF-696 for FYs 2008 and 2009; indicating a total of$221,578 in Discretionary funds. However, said 

           worksheets also indicate the State expended Temporary Assistance for Needy Families (TANF) trans fer funds 

           equal to or greater than the shortfall in Discretionary funds in both years. It is the State's contention that TANF 

           transfer funds meet the target as well as Discretionary funds. Moreover, DCFS nor the US OIG audit team found 

           indication in Administration for Children and Families (ACF) Policy that TANF transfer funds cannot be used to 

           meet Discretionary targets. As s uch, the State did not improperly claim and/or overstate Line I (e) expenditures in 

           FYs 2008 and 2009. 





          An Equal Opportunity Employer • Child Welfare Programs Accredited by the Council on Accreditation for Children and Family Services   ' t:1 ~
L ouisiana Improp erly Claimed Some Child Care and Development F und Targeted F unds (A-06-12-00057)                                                     9
           Page 2 of2
           US OlG Audit: CCDF



           DCFS continues to seek opportunities to strengthen controls for monitoring the allocation and reporting of
           expenditures claimed for targeted funds. Currently, DCFS Fiscal Services utilizes a monthly Statement of
           Expenditures (SOE) to capture and summarize monthly Departmental expenditures by funding source and
           Agency appropriation. The SOE is reconciled to federal reporting to ensure accurate reporting of expenditures, to
           include ACF-696 quarterly reporting of CCDF targeted funds. DCFS Fiscal Services Management performs
           secondary reviews of monthly and quarterly/cumulative reporti ng. DCFS Fiscal Services Management further
           serves to resolve any misrepresentation, prior to report submission. DCFS Programmatic Management serves as a
           secondary re view, to promote reporting accuracy. Effective March 2013, DCFS Fiscal Services has enhanced
           reconcil iation tracking to capture movement of line item expenditures when meeting targeting funding
           requirements as prescribed by the ACF-696 reporting. This enhancement offers transparency for the reconciliation
           process; as supported by expenditure documentation and system reporting. This system of controls further
           supports effective management review and identification o f variations therein.

           Given such, the State does not concur with the findings, that DCFS did not comply with Federal requirements for
           use of $221 ,578 in CCDF targeted funds. Moreover, DCFS does not concur with the recommendation that the
           State refund said funding to the Federal Government.

           Please advise in the event that additional clarification and/or information are required.

           Sincerely,




           cc: 	   Etta Harris, Undersecretary
                   Brent Vi llemarene, Deputy Secretary-Programs
                   Lisa Andry, Assistant Deputy Secretary-Programs
                   Sharon Tucker, Deputy Secretary-Operations
                   Sandra Broussard, Assistant Deputy Secretary-Operations
                   Kaaren Hebert, Policy Advisor
                   Charlie Dirks, Executive Counsel
                   Trey Williams, Director, Bureau of Communications & Governmental Affairs
                   Del Augustus, Director Bureau of Audit & Compliance Services, DCFS Audit Liaison
                   Kim Matherne, Economic Stability, Executive Director




L ouisiana Improperly Claimed S ome Child Care and Development Fund Targeted F unds (A-06-I2-00057)                            10
